CERTIFICATE OF SERVICE
NO. TBD
Anne Richards Et al.
Petitioners,
v.
Sam Olens Et al.
Respondents.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the ANNE
RICHARDS ET AL. PETITION FOR WRIT OF CERTIORARI, by mailing one (1) true and correct copy of the
same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Christopher Carr
Office of the Attorney General
40 Capitol Square, SW
Atlanta, GA 30334-1300
(404) 458-3600
Counsel for Sam Olens Et al.

Lucas DeDeus

December 14, 2020
SCP Tracking: Humphreys-P.O. Box 192-Cover White

